           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



   ADMINISTRATIVE COSTS CLAIMED
    BY THE DISTRICT OF COLUMBIA
 DISABILITY DETERMINATION DIVISION
    FOR FISCAL YEARS 2001 AND 2002

    November 2005   A-15-05-30018




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                          SOCIAL SECURITY

MEMORANDUM

Date:   November 8, 2005                                                            Refer To:

To:     Laurie Watkins
        Regional Commissioner
         Philadelphia

From:   Inspector General

Subject: Administrative Costs Claimed by the District of Columbia Disability Determination
        Division for Fiscal Years 2001 and 2002 (A-15-05-30018)


        OBJECTIVE

        The objectives of our audit of the District of Columbia Disability Determination Division
        (DDD) for Fiscal Years (FY) 2001 and 2002 were to: (1) evaluate internal controls over
        the accounting and reporting of administrative costs, (2) determine if costs claimed were
        allowable and properly allocated, (3) reconcile funds drawn down with claimed costs,
        and (4) assess on a limited basis the general security controls environment.

        BACKGROUND

        The Disability Insurance (DI) program, established under Title II of the Social Security
        Act (Act), provides benefits to wage earners and their families in the event the wage
        earner becomes disabled. The Supplemental Security Income (SSI) program,
        established under Title XVI of the Act, provides benefits to financially needy individuals
        who are aged, blind, and/or disabled.

        The Social Security Administration (SSA) is responsible for implementing policies
        for the development of disability claims under the DI and SSI programs. Disability
        determinations under both DI and SSI are performed by disability determination
        services (DDS) in each State, Puerto Rico and the District of Columbia in accordance
        with Federal regulations.1 Each DDS is responsible for determining claimants’


        1
            20 C.F.R. (Code of Federal Regulations) §§ 404.1601 et seq. and 416.1001 et seq.
Page 2 – Laurie Watkins


disabilities and ensuring that adequate evidence is available to support its
determinations. To make proper disability determinations, each DDS is authorized to
purchase medical examinations, x-rays, and laboratory tests on a consultative basis to
supplement evidence obtained from the claimants’ physicians or other treating sources.

SSA reimburses the DDS for 100 percent of allowable expenditures up to its approved
funding authorization. The DDS withdraws Federal funds through the Department of the
Treasury’s (Treasury) Automated Standard Application for Payments system to pay
for program expenditures. Funds drawn down must comply with Federal regulations2
and intergovernmental agreements entered into by Treasury and States under the Cash
Management Improvement Act of 1990.3 An advance or reimbursement for costs under
the program must comply with the Office of Management and Budget’s (OMB) Circular
A-87, Cost Principles for State, Local, and Indian Tribal Governments. At the end of
each quarter for the FY, each DDS submits a State Agency Report of Obligations for
SSA Disability Programs (Form SSA-4513) to account for program disbursements and
unliquidated obligations.4 The Form SSA-4513 reports expenditures and unliquidated
obligations for Personnel Service Costs, Medical Costs, Indirect Costs, and All Other
Nonpersonnel Costs.

DDD is the DDS for the District of Columbia. The DDD is a component within the
Department of Human Service’s (DHS) Rehabilitation Services Administration (RSA).
DDD’s sole function is to process SSA disability determinations. DDD’s financial
reporting functions were the responsibility of DHS.

DHS claimed costs of $4,633,761 for FY 2001 and $5,733,820 for FY 2002 on DDD’s
Forms SSA-4513, dated October 30, 2002 and December 3, 2003, respectively.

To provide timely feedback to DHS and SSA regarding the internal controls over costs
claimed by DHS, we issued an Office of the Inspector General (OIG) report,
Administrative Costs Claimed by the District of Columbia Disability Determination
Division (A-15-04-14052) on August 13, 2004. In that report, we explained that Forms
SSA-4513 submitted by DHS for FYs 2001 and 2002 contained misstatements, which
may lead to incorrect or unintentional conclusions. In response to our previous OIG
report, SSA’s Philadelphia Regional Office and DHS agreed with our recommendations.
The results and recommendations from our previously issued report are listed in
Appendix C. Because of the conditions identified in the earlier report, we expanded our
audit tests to understand better how these control deficiencies impacted DHS’ financial
accounting and reporting practices.



2
    31 C.F.R. § 205.1 et seq.
3
    Pub. L. No. 101-453, 31 U.S.C. § 6501.
4
 POMS DI 39506.200, B, 4, “Unliquidated obligations represent obligations for which payment has not
yet been made. Unpaid obligations are considered unliquidated whether or not the goods or services
have been received.”
Page 3 – Laurie Watkins


RESULTS OF REVIEW
DHS claimed net unallowable costs of $106,102 for FYs 2001 and 2002, which should
be refunded to SSA. Moreover, there was almost $1.5 million in costs (including
$257,750 in unliquidated obligations) that could not be substantiated because DHS did
not provide documentation. Also, SSA should direct DHS to institute internal control
measures to prevent the misclassification of costs, and where warranted, reclassify
costs.

DHS did not have adequate internal controls in place to monitor its accounting
operations on a continuous basis to ensure compliance with SSA’s Program Operations
Manual System (POMS) Chapter DI 39500 and OMB Circular A-87. However, our
review of cash draws and limited review of the general controls environment for DDD
did not identify deficiencies.

UNALLOWABLE COSTS

We determined the net unallowable costs claimed for the DDD totaled $106,102. The
unallowable costs were the net of three cost items: (1) unallowable distributed costs,
plus (2) improper entity costs, minus (3) allowable costs not claimed. DHS should
refund to SSA the net amount of unallowable costs.

Unallowable Distributed Costs

For the All Other Nonpersonnel Costs category, DHS reported net unallowable costs for
guard services, occupancy (rent), and utility expenses of $101,945 and $73,628 for
FYs 2001 and 2002, respectively. DHS’ distributions were unreasonable because the
actual costs were readily available and SSA funded more than its appropriate share of
costs. OMB Circular A-87 states: “...costs must be necessary and reasonable for
proper and efficient performance and administration of Federal awards.”5 To determine
the allowable costs for guard service, occupancy, and utility DHS should have charged
to the DDD, we analyzed source documents such as invoices and the lease.

The unallowable costs occurred because DHS used a cost distribution methodology that
resulted in higher costs than actual costs incurred by DDD. The distributions were
based on budget estimates. The components’ individual budget estimates were divided
into the “pooled” total of budgeted costs to derive a percentage for each component.
The components’ percentage was applied to the total actual costs incurred by all DHS
components.




5
 OMB Circular A-87, Cost Principles for State, Local, and Indian Tribal Governments, Attachment A,
section (C)(1)(a) (as amended August 29, 1997).
Page 4 – Laurie Watkins



                                                          FY 2001
                                                                                            Overstatement
          Distributed Cost Items                   Claimed Costs           Verified Costs (Understatement)
          Guard Service                          $        135,727          $        24,822 $       110,905
          Occupancy                              $        225,000          $      263,960 $         (38,960)
          Utility*                               $         30,000          $             - $         30,000
           Net Total                             $        390,727          $      288,782 $        101,945
          *Our review of the lease for the DDD showed utility costs were already included in rent.   DHS should not have allocated
          any utility costs to the DDD.


                                                         FY 2002
                                                                                                       Overstatement
          Distributed Cost Items                    Claimed Costs          Verified Costs            (Understatement)
          Guard Service                         $                  -      $         25,318           $         (25,318)
          Occupancy                             $            375,085      $       276,139            $          98,946
           Net Total                            $            375,085      $       301,457            $          73,628


Improper Entity Costs

DHS overcharged DDD a net amount of $29,302 for FY 2001 Personnel Costs (for
medical consultants) and All Other Nonpersonnel Costs were improperly recorded to the
wrong entity (see schedule in Appendix E). Costs belonging to RSA were recorded for
DDD and costs belonging to DDD were recorded for RSA. Federal regulations provide
that States be reimbursed for expenses incurred for program purposes.6 We could not
find controls in operation which would prevent or detect charges to the wrong entity.
DHS reimbursed SSA $13,683 based on our previous report’s recommendations.7
Therefore the balance of $15,619 should be paid to SSA.

Allowable Costs Not Claimed

We traced supporting documents from the vendor files for All Other Nonpersonnel costs
for FYs 2001 and 2002 to the accounting records. We found supporting documentation
for All Other Nonpersonnel Costs of $10,880 and $74,210 for FYs 2001 and 2002,
respectively, which were not recorded in DHS’ accounting records as DDD expenses.
These costs were allowable under OMB Circular A-87 which states: “…costs must be
necessary and reasonable for proper and efficient performance and administration of
Federal awards.”8 DDD did not have internal controls in place, which would detect the
costs not recorded against its proper funding authority.




6
    20 C.F.R. §§ 404.1626(a) and 416.1026(a).
7
 Administrative Costs Claimed by the District of Columbia Disability Determination Division
(A-15-04-14052), August 13, 2004.
8
    OMB Circular A-87, Attachment A, section (C)(1)(a) (as amended August 29, 1997).
Page 5 – Laurie Watkins



                                    Unallowable Costs
                                            FY 2001                 FY 2002     Total
           Unallowable Distributed Costs   $ 101,945               $ 73,628 $ 175,573
           Improper Entity Costs           $ 15,619                $        0 $   15,619
           Allowable Costs Not Claimed     $ (10,880)              $ (74,210) $ (85,090)
           Total                           $ 106,684               $    (582) $ 106,102

SSA should direct DHS to reimburse SSA for the total net unallowable costs of
$106,102 as shown in the table above. To avoid future unallowable costs, DHS should
establish a strong system of internal controls over its accounting operations.

Unsupported Costs

We determined there were unsupported costs claimed for the DDD that totaled
$1,463,020. OMB Circular A-87 states, “To be allowable under Federal awards, costs
must…be adequately documented.”9 Also, SSA’s POMS require agencies retain
financial records and supporting documentation until a Federal audit has been
performed and all findings have been resolved.10 The unsupported costs were the net
of unsupported Medical Evidence Costs, unsupported medical consultant costs, and
unsupported All Other Nonpersonnel Costs.

Unsupported Medical Evidence Costs

We determined discrepancies of Medical Evidence Costs occurred between the Forms
SSA-4513 and the DDD claims processing system11 as a result of improper recording
and reporting of obligations. We compared medical costs on the Forms SSA-4513 to
the DDD’s claims processing system data known as AS400. The AS400 data should be
the only source of Medical Evidence Costs in the flow of transactions for accounting for
medical costs. Our comparison of medical costs showed RSA and DHS overstated
DDD’s Medical Evidence Costs of $228,912 for FY 2001 and $450,302 for FY 2002
costs.

                                                Medical Evidence Costs
                                         Reported in                   Overstated
                                 FY      SSA-4513         AS400          Costs
                                2001    $ 1,396,016 $      1,167,104 $     228,912
                                2002    $ 1,689,897 $      1,239,595 $     450,302




9
    OMB Circular A-87, Attachment A, section (C)(1)(j) (as amended August 29, 1997).
10
     SSA, POMS DI 39509.005 C.1.b.
11
     Disability claims are processed on an IBM Corporation Model AS/400 computer using I-Levy software.
Page 6 – Laurie Watkins



We determined that $16,150 of the $450,302 overstated FY 2002 costs claimed for
DDD were caused by All Other Nonpersonnel Costs incorrectly recorded as Medical
Evidence Costs (see Incorrect Cost Category on page 7). DHS accountants could not
provide us with supporting documents for the remaining difference of $434,152. SSA
should work with DHS to determine the validity of the unsupported costs for medical
evidence, and DHS should refund to SSA any costs for which support can not be
provided.

Unsupported Medical Consultant Costs

We determined there were discrepancies between the supporting documentation and
the amounts reported on the Forms SSA-4513. To determine the actual costs, we
reconstructed the medical consultant costs using the medical consultant invoices. We
reviewed and then summed 100 percent of the medical consultant payment vouchers to
derive the actual costs. We compared the vouchers’ total to the accounting records.
We determined there were two areas of concern relating to the differences between the
vouchers total and the accounting records. First, there were misclassified All Other
Nonpersonnel Costs recorded as medical consultant costs. (See the discussion
Improper Entity Costs on page 4 and Incorrect Cost Category on page 7.) Second,
DHS could not provide documentation supporting the remaining differences. DHS
understated the amount claimed for medical consultant costs in FY 2001 by $30,885
and overstated the amount claimed in FY 2002 by $258,631.

                                   Medical Consultant Costs
                            Less:           Less:
                          Improper       Incorrect                                Over/
               Accounting   Entity          Cost                 Consultants'  (Understated)
      FY        Records     Costs         Category      Subtotal  Invoices        Costs
     2001     $ 458,088 $         810 $ 138,948 $ 318,330 $           349,215 $      (30,885)
     2002     $ 771,040 $            - $ 182,308 $ 588,732 $          330,101 $     258,631

SSA needs to work with DHS to determine the validity of the unsupported costs for
medical consultants, and DHS should refund any costs for which support can not be
provided.

Unsupported All Other Nonpersonnel Costs

For FY 2002, DHS claimed disbursements of $137,658 and unliquidated obligations of
$257,750 for construction at the DDD location.12 However, DHS could not provide us
with supporting documentation such as invoices and contracts for the construction
costs. Also, DHS could not provide supporting documents for dictation, courier,
temporary staff, office supply, travel, and postage expenses of $78,648 for FY 2001 and
$6,712 for FY 2002.

12
     810 1st Street Northeast, Washington, DC.
Page 7 – Laurie Watkins


In addition, DHS claimed telephone costs were allocated in the same manner as the
guard service, occupancy and utility costs as described previously. (See Unallowable
Distributed Costs on page 3.) For FY 2002, we were not able to verify $52,939 of the
$62,937 telephone costs claimed for the DDD. Furthermore, DHS could not provide us
documents to support the telephone costs of $37,937 for FY 2001.

SSA needs to work with DHS to determine the validity of the net unsupported costs
claimed for the DDD, and DHS should refund any disbursements claimed for which
support can not be provided.

Incorrect FY Recording and Reporting

We found obligations of $61,804 in All Other Nonpersonnel Costs that were recorded
and reported in the wrong FY. RSA misclassified $566 of FY 2000 costs and $61,238
of FY 2002 costs as FY 2001 obligations.13 Throughout this audit, we have identified
examples of how internal control weaknesses impacted DHS’ accounting and reporting
practices. POMS states, “Obligations must be based on a bona fide need for goods or
services that exist within the Federal fiscal year.…”14 While costs may have been
expended for allowable purposes, the financial reporting of information in the wrong FY
does not provide decision makers with accurate information on which to base budgetary
and management decisions.

DDD did not have internal controls in place, which would detect the costs not properly
recorded. DHS needs to reclassify the misclassified costs of $566 and $61,238
charged to FY 2001 to FYs 2000 and 2002, respectively. Also, DDD needs to reconcile
its purchases to the accounting reports maintained by DHS.

Incorrect Cost Category

Medical consultant costs, a component of Personnel Costs were overstated and All
Other Nonpersonnel Costs were understated by $138,948 and $182,308 for FYs 2001
and 2002, respectively. Our review of all medical consultant invoices showed RSA had
misclassified All Other Nonpersonnel Costs for dictation services, courier services, and
temporary staff as medical consultant costs. POMS require that each cost category be
reported on the proper line on Form SSA-4513.15

Similarly, RSA incorrectly classified All Other Nonpersonnel costs as Medical Evidence
Costs. Specifically, computer consultant costs were charged as Medical Evidence
Costs. An administrative officer told us the budget for All Other Nonpersonnel Costs
was already expended so those costs were classified as Medical Evidence Costs. As a
result, All Other Nonpersonnel Costs were understated and Medical Evidence Costs

13
     An obligation is a financial or related transaction that creates a legal obligation to pay.
14
     SSA, POMS DI 39506.200 B.1.
15
     SSA, POMS DI 39506.210 D.i.
Page 8 – Laurie Watkins


were overstated by $16,150 for FY 2002. The financial reporting of information in the
wrong cost category does not provide decision makers with accurate information on
which to base budgetary and management decisions.

We did not find controls in operation, which would prevent or detect charges to the
inappropriate entity or account. DHS needs to implement controls to prevent or detect
such inappropriate charges, and where warranted, reclassify the costs to the proper
accounts.

CONCLUSION AND RECOMMENDATIONS
The conditions identified in this report reflect the impact of the internal control
deficiencies that were reported in our prior report.16 As a result, the Forms SSA-4513
submitted by DHS for FYs 2001 and 2002 contained misstatements which may lead to
incorrect or unintentional conclusions. The misstatements were due to poor accounting
by DHS. As a result, DDD claimed more costs than it should have.

We recommend SSA (See Appendix F for the details of the recommendations):

1. Instruct DHS to refund to SSA $106,102 for the unallowable costs.

2. Work with DHS to determine the validity of net unsupported costs of $376,416 and
   $1,086,604 for FY 2001 and 2002, respectively, and require DHS to refund any
   disbursements claimed for which support can not be provided.

3. Instruct DHS to reclassify, where warranted, FY 2001 Personnel Costs of $138,948
   to All Other Nonpersonnel Costs and FY 2002 Personnel Costs of $182,308 and
   Medical Evidence Costs of $16,150 to All Other Nonpersonnel Costs and to
   implement appropriate controls to prevent misclassification from occurring in the
   future.

4. Instruct DHS to institute internal control measures that ensure proper recording of
   costs on the Form SSA-4513.

5. Instruct the DDD to reconcile its All Other Nonpersonnel purchases to the
   accounting reports maintained by DHS.




16
  Administrative Costs Claimed by the District of Columbia Disability Determination Division
(A-15-04-14052), August 13, 2004.
Page 9 – Laurie Watkins


SSA COMMENTS

SSA agreed with our recommendations. The full text of SSA’s comments may be found
in Appendix G.

DHS COMMENTS AND OFFICE OF THE INSPECTOR GENERAL
RESPONSE
DHS agreed with our recommendations. DHS’ comments may be found in Appendix H.
Because of the length of DHS’ comments, we did not include its Enclosures in Appendix
H. A complete copy may be obtained by written request to the OIG contacts mentioned
in Appendix I.




                                          S
                                          Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Summary of First Report in Series
APPENDIX D – Schedule of Obligations Reported, Audit Adjustments and Adjusted
             Costs
APPENDIX E – Improper Entity Costs – Fiscal Year 2001
APPENDIX F – Recommendations
APPENDIX G – Agency Comments
APPENDIX H – DHS Comments
APPENDIX I – OIG Contacts and Staff Acknowledgments
                                                                  Appendix A

Acronyms
Act             Social Security Act
C.F.R.          Code of Federal Regulations
DC              District of Columbia
DDD             District of Columbia Disability Determination Division
DDS             Disability Determination Services
DHS             District of Columbia Department of Human Services
DI              Disability Insurance
Form SSA-4513   State Agency Report of Obligations for SSA Disability Programs
FY              Fiscal Year
OIG             Office of the Inspector General
OMB             Office of Management and Budget
POMS            Program Operations Manual System
Pub. L. No.     Public Law Number
RSA             Rehabilitation Service Administration
SSA             Social Security Administration
U.S.C.          United States Code
SSI             Supplemental Security Income
Treasury        United States Department of the Treasury
                                                                        Appendix B

Scope and Methodology
We audited the administrative costs claimed on the Social Security Administration
(SSA) State Agency Report of Obligations for SSA Disability Programs, (Form
SSA-4513) for Fiscal Year (FY) 2001, dated October 30, 2002, and FY 2002, dated
December 3, 2003, for the District of Columbia (DC) Division of Disability
Determinations (DDD).

We initially identified significant problems with the District of Columbia’s Department of
Human Services’ (DHS) accounting operations for the DDD. We reported the problems
in our report entitled, Administrative Costs Claimed by the District of Columbia Disability
Determination Division (A-15-04-14052) issued on August 13, 2004. Our present report
represents the completion of our audit of DDD’s administrative costs.

We obtained evidence to evaluate the appropriateness of recorded financial
transactions under the provisions of Office of Management and Budget Circular A-87,
Cost Principles for State, Local and Indian Tribal Governments and the Social Security
Administration’s Program Operations Manual System.

We also:

       •   reviewed applicable Federal laws and regulations, SSA’s Program Operations
           Manual System and other applicable instructions that pertained to
           administrative costs incurred by DDD;

       •   interviewed DHS, Rehabilitation Services Administration (RSA) and DDD
           staff;

       •   documented our understanding of the systems of internal control over the
           accounting and reporting of DDD administrative costs;

       •   reconstructed accounting records to determine actual costs incurred for
           FYs 2001 and 2002;

       •   traced the DDD administrative costs DHS reported on Forms SSA-4513 to its
           accounting records;

       •   evaluated and tested internal controls regarding accounting and financial
           reporting and cash management activities, as well as the draw down of SSA
           funds;




                                            B-1
      •   analyzed DHS’ draw downs of SSA funds and reconciled them with reported
          expenditures;

      •   conducted a physical inventory of computer equipment SSA provided to
          DC-DDD during our audit period;

      •   examined, on a limited basis, the general security controls environment of the
          DDD;

      •   reviewed prior audit reports and related work papers;

      •   compared 100 percent of the consultative examinations’ rates to Medicare fee
          schedules;

      •   traced 100 percent of the medical consultant payment transactions in the
          accounting records to the supporting documents;

      •   compared Medical Evidence Costs from the DDD claims processing system
          records to those costs reported in the DHS accounting system and claimed
          on its Forms SSA-4513; and

      •   recalculated Indirect Costs.

We determined the data in the accounting records was not sufficiently reliable given the
audit objective and intended use of the data. We base this determination on the
alterations made to the accounting records and our tests which resulted in significant (or
potentially significant) problems. Because the use of this data could lead to an incorrect
or unintentional message, we completed additional tests, such as recomputations and
reconstruction of the account balances, to provide support for our findings.

We performed work at the DHS, RSA and DDD in Washington, DC. We conducted our
audit work from October 2003 through November 2004. Our audit work was completed
in accordance with generally accepted government auditing standards.

Sampling Methodology
Our sampling methodology was applied to three general areas of costs as reported on
Form SSA-4513: (1) Personnel Costs, (2) Medical Evidence Costs, and (3) All Other
Nonpersonnel Costs. We obtained data extracts from the DHS’ financial accounting
system and the DDD’s medical evidence claims processing system for FYs 2001 and
2002 to use in our statistical sampling. We also obtained DDD payroll registers and
medical consultant invoices and time sheets. After selecting and reviewing the
transactions, we did not make statistical projections. We used actual costs for the
errors identified during our review.
Medical Evidence Costs



                                           B-2
We selected 200 Medical Evidence Cost items (100 items from each FY) for review
using a stratified random sample. We distributed the sample items equally between
medical evidence of records and consultative examinations.

Personnel Costs

We reviewed 50 personnel transactions from the DDD payroll registers for each of the
FYs 2001 and 2002 using a systematic sampling technique. We tested the payroll
transactions to ensure the DDD accurately paid its employees and adequately
supported the payments. In addition, we compared 100 percent of the invoices and
time sheets for the medical consultants hired by the DDD to the data extracts from the
DHS financial accounting system for FYs 2001 and 2002.

All Other Nonpersonnel Costs

We reviewed 84 and 69 All Other Nonpersonnel Cost items for FYs 2001 and 2002,
respectively, using a sample selected from the DHS financial accounting system.




                                          B-3
                                                                       Appendix C

Summary of First Report in Series
To fully understand the issues that challenge the District of Columbia’s Department of
Human Services (DHS), the readers of this report, the second in the series of two
reports, should also consider the issues brought forth in the earlier Office of the
Inspector General report (OIG) Administrative Costs Claimed by the District of Columbia
Disability Determination Division (A-15-04-14052), issued on August 13, 2004.

In the earlier OIG audit, we reported the District of Columbia Disability Determination
Division (DDD) claimed total obligated costs of $4,633,761 for Fiscal Year (FY) 2001
and $5,733,820 for FY 2002 as of September 30, 2002 and September 30, 2003,
respectively; however, we believe the State Agency Report of Obligations for SSA
Disability Programs (Forms SSA-4513) submitted by DHS for FYs 2001 and 2002
contain serious misstatements and may lead to incorrect or unintentional conclusions.

DHS did not comply with:

   1. Social Security Administration’s (SSA) Program Operations Manual System,

   2. Federal laws and regulations, and

   3. District of Columbia (DC) government policies and procedures.

The DHS did not have adequate internal controls in place to monitor its accounting
operations on a continuous basis to ensure compliance with these requirements.
Internal controls should include management and supervisory oversight, comparisons,
reconciliations, etc.

The source of the misstatements included problems with:

   1. Accounting processes - Discrepancies with recording and reporting of obligations
      on the Form SSA-4513 because disbursements were being reported in the wrong
      FY;

   2. Movement of costs - Administrative costs claimed for the period under audit
      identified expenditures charged to incorrect years’ funds. DHS did not recognize
      obligations in the period that the obligations were incurred;

   3. Allocation of costs - Basis for the allocations was inappropriate;

   4. Classification of costs - Costs recorded as the wrong type of expense or charged
      to the wrong entity; and


                                           C-1
   5. Supporting documentation - Documents not readily available for audit
      examination.

In response to our previous OIG report, SSA’s Philadelphia Regional Office and DHS
agreed with our recommendations. We recommended SSA:

   1. work with the DHS to ensure that the accounting staff is properly trained to
      account for SSA funds as required;

   2. ensure DHS implements systems modifications and controls over its accounting
      process to validate the accuracy of costs claimed;

   3. increase its oversight of the DHS accounting process to detect and correct
      accounting errors relating to the DDD operations;

   4. instruct DHS to reimburse SSA $13,683 for non-DDD costs charged; and

   5. instruct DHS to maintain appropriate documentation, so that it is readily available
      for audit examination.




                                           C-2
                                                                                   Appendix D

              Schedule of Obligations Reported,
             Audit Adjustments and Adjusted Costs
                      for Fiscal Year 2001
                                          REPORTED ON
                                           FORM SSA-
                                           4513, dated           AUDIT                 ADJUSTED
                   COSTS                    10/30/02          ADJUSTMENTS               COSTS

      ALL OTHER NONPERSONNEL
                                                                                 (a)
       DISBURSED                                 $636,462          $(158,998)             $477,464
       UNLIQUIDATED                                     0                   0                    0
      TOTAL ALL OTHER OBLIGATIONS                $636,462          $(158,998)             $477,464

      PERSONNEL
                                                                                 (b)
       DISBURSED                               $2,022,464           $(108,873)           $1,913,591
       UNLIQUIDATED                                     0                   $0                    0
      TOTAL PERSONNEL OBLIGATIONS              $2,022,464           $(108,873)           $1,913,591

      MEDICAL
                                                                                 (c)
       DISBURSED                               $1,396,016          $(228,912)            $1,167,104
       UNLIQUIDATED                                     0                   0                     0
      TOTAL ALL OTHER OBLIGATIONS              $1,396,016          $(228,912)           $1,167,104.

      INDIRECT COST
       DISBURSED                                 $578,819                   $0            $578,819
       UNLIQUIDATED                                     0                    0                   0
      TOTAL INDIRECT OBLIGATIONS                 $578,819                   $0            $578,819

      TOTAL DISBURSED                          $4,633,761          $(496,783)            $4,136,978
      TOTAL UNLIQUIDATED                                0                    0                    0
      TOTAL OBLIGATIONS                        $4,633,761          $ (496,983)           $4,136,978

(a)
       Adjustments – $(139,882) unallowable distributed costs, $(28,492) improper entity costs, $10,880
       allowable costs not claimed, $(78,648) unsupported costs, $(61,804) incorrect FY recording and
       reporting, and $138,948 incorrect cost category.
(b)
       Adjustments - $(810) improper entity costs, $30,885 unsupported costs, and $(138,948) incorrect
       cost category.
(c)
       Adjustments - $(228,912) unsupported costs.




                                                 D-1
              Schedule of Obligations Reported,
             Audit Adjustments and Adjusted Costs
                      for Fiscal Year 2002
                                          REPORTED ON
                                         THE FORM SSA-             AUDIT               ADJUSTED
                  COSTS                 4513, dated 12/3/03     ADJUSTMENTS             COSTS

      ALL OTHER NONPERSONNEL:
                                                                                 (a)
       DISBURSED                                   $651,274            $62,969              $714,243
                                                                                 (b)
       UNLIQUIDATED                                 257,750         $(257,750)                     0
      TOTAL ALL OTHER OBLIGATIONS                  $909,024         $(194,781)              $714,243

      PERSONNEL
                                                                                 (c)
       DISBURSED                                 $2,501,482         $(440,939)            $2,060,543
       UNLIQUIDATED                                       0                  0                     0
      TOTAL PERSONNEL OBLIGATIONS                $2,501,482         $(440,939)            $2,060,543

      MEDICAL
                                                                                 (d)
       DISBURSED                                 $1,689,897         $(450,302)            $1,239,595
       UNLIQUIDATED                                       0                  0                     0
      TOTAL MEDICAL OBLIGATIONS                  $1,689,897         $(450,302)            $1,239,595

      INDIRECT COST
       DISBURSED                                   $633,417                 $0              $633,417
       UNLIQUIDATED                                       0                  0                     0
      TOTAL INDIRECT OBLIGATIONS                   $633,417                 $0              $633,417

      TOTAL DISBURSED                            $5,476,070         $(828,272)            $4,647,798
      TOTAL UNLIQUIDATED                            257,750         $(257,750)                     0
      TOTAL OBLIGATIONS                          $5,733,820       $(1,086,022)            $4,647,798

(a)
       Adjustments – $(126,567) unallowable distributed costs, $74,210 allowable costs not claimed,
       $(144,370) unsupported costs and $61,238 incorrect FY recording and reporting, and $198,458
       incorrect cost category.
(b)
       Adjustments - $(257,750) unsupported costs.
(c)
       Adjustments - $(258,631) unsupported costs, and $(182,308) incorrect cost category.
(d)
       Adjustments - $(434,152) unsupported costs, and $(16,150) incorrect cost category.




                                                D-2
                                                                          Appendix E

                         Improper Entity Costs
                           Fiscal Year 2001
DHS overcharged DDD a net amount of $29,302 for Fiscal Year 2001 Personnel Costs
(for medical consultants) and All Other Nonpersonnel Costs that were improperly
recorded to the wrong entity.

                               Improper Entity Costs               FY 2001
               All Other Nonpersonnel Costs
                Other Entity Costs Incorrectly Charged to DDD     $   36,181
                DDD Costs Incorrectly Charged to Another Entity   $   (7,689)
                  Total All Other Nonpersonnel Costs              $   28,492
               Medical Consultant Costs
                Other Entity Costs Incorrectly Charged to DDD     $ 10,970
                DDD Costs Incorrectly Charged to Another Entity   $ (10,160)
                  Total Medical Consultant Costs                  $     810
               Net Improper Entity Costs                          $ 29,302
                                                                                Appendix F

Recommendations
We recommend the Philadelphia Regional Office:

   1. Instruct Direct the District of Columbia Department of Human Services (DHS) to
      refund to the Social Security Administration (SSA) $106,102 for unallowable
      costs.

      Reporting Items                                                 FY 2001      FY 2002
      All Other Nonpersonnel Costs
            Unallowable Distributed Costs
                   Guard Service                                       $110,905      $(25,318)
                   Occupancy                                            (38,960)        98,946
                   Utility                                                30,000             -
            Improper Entity Costs*                                        14,809             -
            Allowable Costs Not Claimed                                 (10,880)      (74,210)
       Total All Other Nonpersonnel Costs                              $105,874      $ (582)
      Personnel Costs
            Improper Entity Costs                                      $    810              -
       Total Personnel Costs                                           $    810              -
      Total Refund                                                     $106,684      $   (582)

*DHS had previously reimbursed SSA $13,683 for non-Disability Determination Division (DDD) costs.

   2. Work with DHS to determine the validity of net unsupported costs of $376,416
      and $1,086,604 for FY 2001 and 2002, respectively, and require DHS to refund
      any disbursements claimed for which support can not be provided.

       Reporting Items                                               FY 2001       FY 2002
       All Other Nonpersonnel Costs
            Unsupported Costs
                   Construction                                               -      395,408
                   Telephone                                           $ 37,937    $   52,939
                   Dictation, Courier and Temporary Staff                70,489         2,140
                   Office Supplies, Travel and Postage                    8,159         4,572
            Incorrect FY Recording and Reporting                         61,804      (61,238)
        Total All Other Nonpersonnel Costs                             $178,389    $ 393,821
       Personnel Costs
            Unsupported Costs                                          $(30,885)   $ 258,631
        Total Personnel Costs                                          $(30,885)   $ 258,631
       Medical Evidence Costs
            Incorrect FY Recording and Reporting                       $228,912    $ 434,152
        Total Medical Evidence Costs                                   $228,912    $ 434,152
       Total Unsupported Costs                                         $376,416    $1,086,604




                                                  F-1
3. Instruct DHS to reclassify, where warranted, FY 2001 Personnel Costs of
   $138,948 to All Other Nonpersonnel Costs and FY 2002 Personnel Costs of
   $182,308 and Medical Evidence Costs of $16,150 to All Other Nonpersonnel
   Costs and to implement appropriate controls to prevent misclassification from
   occurring in the future.

4. Instruct DHS to institute internal control measures that ensure proper recording
   of costs on the Form SSA-4513.

5. Direct the DDD to reconcile its All Other Nonpersonnel purchases to the
   accounting reports maintained by DHS.




                                       F-2
                  Appendix G

Agency Comments
                                SOCIAL SECURITY
                                                                 Regional Office III
                                                                 P. O. Box 8788
                                                                 Philadelphia, PA 19101
                                   October 17, 2005


Mr. Patrick P. O'Carroll, Jr.
Inspector General
Suite 300, Altmeyer Building
6401 Security Boulevard
Baltimore, Maryland 21253

Dear Mr. O’Carroll

We have reviewed the draft report entitled Administrative Costs Claimed by the District
of Columbia (DC) Disability Determination Division (DDD) for Fiscal Years 2001 and
2002 (A-15-05-30018) and concur with the five recommendations requiring action.

Before we address these recommendations and provide comments on the activities
underway in the Department of Human Services (DHS) to resolve these findings, we
would like to give you some sense of the effort and resources expended assisting the
DC DDD and its parent agencies, Department of Human Services (DHS) and
Rehabilitation Services Agency (RSA), in meeting its responsibility to provide accurate
and timely service to the disabled citizens of the District of Columbia and to properly
account for the funds SSA provides to carry out these responsibilities.

We became increasingly concerned about discrepancies and reporting irregularities on
SSA financial reports submitted by the DC DHS during the latter part of FY 2003.
Several visits and written communications to the DDD and RSA, by my staff attempting
to resolve these reporting irregularities were unsuccessful.

On July 16, 2003 we requested that the SSA OIG Office of Audit conduct another audit
of costs claimed by the DC DDD (A previous audit for Fiscal Years 1996 and 1997
resulted in repayments and sustained financial adjustments of $273,005.00).

Field work on the most recent audit began in early FY 2004, and on August 13, 2004
the SSA OIG issued the first of two audit reports. A step your office deemed necessary
in order to begin immediate corrective action on what were determined to be systemic
problems in the DC DDD's accounting environment. Recommendations from the first
draft audit report included:




                                          G-1
       •   Work with the DC-DHS to ensure that accounting staff is properly trained to
           account for SSA funds as required.
       •   Ensure DC-DHS implements systems modifications and controls over its
           accounting process to validate the accuracy of costs claimed.
       •   Increase SSA oversight of the DC-DHS accounting process to detect and
           correct accounting errors relating to the DC-DDD operations.
       •   Instruct DC-DHS to reimburse SSA $13,683 for non-DC-DDD costs (shoes,
           clothing, etc.) charged.
       •   Instruct DC-DHS to maintain appropriate documentation, so that it is readily
           available for audit examination.

Regional office staff conducted training sessions as well as held several meetings with
the Director of the DDD and the Administrator of RSA to provide guidance and
suggestions for corrective action.

On June 17, 2005, the second draft audit report was issued. Recommendations for this
part of the audit include:
        • Instruct DHS to refund to SSA $106,102 for the unallowable costs.
        • Work with DHS to determine the validity of net unsupported costs of
           $376,416 and $1,086,604 for FY 2001 and 2002, respectively, and
           require DHS to refund any disbursements claimed for which support
           can not be provided.
        • Instruct DHS to reclassify, where warranted, FY 2001 Personnel
           Costs of $138,948 to All Other Nonpersonnel Costs and FY 2002
           Personnel Costs of $182,308 and Medical Evidence Costs of
           $16,150 to All Other Nonpersonnel Costs and to implement
           appropriate controls to prevent misclassification from occurring in
           the future.
        • Instruct DHS to institute internal control measures that ensure
           proper recording of costs on the Form SSA-4513.
        • Instruct the DDD to reconcile its All Other Nonpersonnel purchases
           to the accounting reports maintained by DHS.

On July 12, 2005, my staff met with members of the DC Government to review this
latest set of audit findings. At that meeting, we provided guidance and proposed action
to resolve every recommendation contained in the second draft audit. Confident that we
had satisfactorily addressed the audit findings at that meeting, we worked with the
District and the SSA OIG to extend the due date of the written response to August 31,
2005.

On September 28, 2005, we received the Department of Human Services’ (DHS)
comments on the recommendations shown in the second draft audit report. We have
reviewed the comments provided by DHS and have incorporated them in our comments
below. The comments provided by DHS are shown directly below the finding; our
regional comments and expected action are italicized.


                                           G-2
1. Instruct DHS to refund to SSA $106,102 for the unallowable costs.

   The District of Columbia Department of Human Services (DHS) has agreed to refund
   the unallowable costs of $106,102 within 45 days.

   We will instruct DHS to forward the funds to the SSA Division of Finance by
   November 14, 2005.

2. Work with DHS to determine the validity of net unsupported costs of $376,416
   and $1,086,604 for FY 2001 and 2002, respectively, and require DHS to refund
   any disbursements claimed for which support cannot be provided.

   The audit determined the net unsupported costs for FYs 2001 and 2002 to be
   $1,463,020.00. DHS provided comments using the specific categories these
   unsupported costs were found in. We adopted this format so as to clearly indicate
   our comments and expected actions as they relate to these specific categories.

   All Other Nonpersonnel Costs:
       • Construction- Unsupported costs - $257,750

          The draft report indicates $395,408 in unsupported costs associated with
          construction. $137,658 was expended and the balance $257,750 is reflected
          as an unliquidated obligation that has not been drawn in reimbursement. The
          Department of Human Services (DHS) has requested a copy of the contract
          with the construction company, as well as copies of relevant invoices to
          support costs incurred.

          During our meeting of 07/12/05, we informed the participants that this
          documentation must be provided in order to resolve this issue. We suggested
          that they inform the Office of Property Management of the costs DHS would
          incur if this documentation is not provided. If copies of these documents are
          not provided by November 14, 2005, we will instruct DHS to de-obligate SSA
          $257,750.00 in unliquidated construction costs.

      •   Telephone – Unsupported costs - $37,937 and $52,939 for FYs 2001 and
          2002 respectively

          DHS requested supporting documentation from the District’s Office of the
          Chief Technology Officer (OCTO) for telephone charges.

          During our meeting of 07/12/05, we informed the participants that this
          documentation must be provided in order to resolve this issue. We suggested
          that they inform the Office of the Chief Technology Officer (OCTO) of the
          costs DHS would incur if this documentation is not provided. If copies of these
          documents are not provided by November 14, 2005, we will instruct DHS to
          reimburse SSA $90, 876.00 in unsupported telephone costs.


                                          G-3
•   Dictation, Courier, Temporary Staff, Office Supplies, Travel and Postage
    - Unsupported costs - $116,585 and $59,651 for FYs 2001 and 2002
    respectively

    DHS will attempt to locate supporting documents for dictation, courier,
    temporary staff, office supplies, travel and postage and submit copies within
    45 days.

    If copies of these documents are not provided by November 14, 2005, we will
    instruct DHS to reimburse SSA $176,236.00 in unsupported costs for
    dictation, courier, temporary staff, office supplies, travel and postage.

•   Medical Consultant Costs- Unsupported costs $30,885 and $258,631 for
    FYs 2001 and 2002, respectively

    The District of Columbia Disability Determination Division (DC DDD) has hired
    two accountant temporary employees to reconcile medical consultant costs
    shown on the SOAR system with invoices received by the DDD for FYs 2001
    and 2002. DHS expects reconciliation of these payments to be completed by
    the end of November.

    As DHS expects to complete the reconciliation by November 30, 2005, we will
    instruct DHS to provide the supporting documentation by December 15, 2005.
    If the documentation is not provided or if the documentation provided does
    not support all of the costs in question, DHS will also be instructed to
    reimburse SSA for all or any costs for which documentation cannot be
    provided.

•   Medical Evidence Costs- Cost Variances of $228,912 and $434,152 for
    FYs 2001 and 2002, respectively

    The District of Columbia Disability Determination Division (DC DDD) has hired
    two accountant temporary employees to reconcile medical evidence costs
    charged on the SSA-4513 report to data contained in the DDD’s AS400
    system. It is anticipated that this reconciliation will be completed no later than
    November 2005

    Policies and procedures have been implemented to ensure that future costs
    are charged to the correct fiscal period. Movement of these charges will only
    occur when the appropriate supporting documentation is presented.

    Again, as DHS expects to complete the reconciliation by November 30, 2005,
    we will instruct DHS to provide the supporting documentation by December
    15, 2005. If the documentation is not provided or if the documentation
    provided does not support all of the costs in question, DHS will be instructed


                                      G-4
         to reimburse SSA for all or any costs for which documentation cannot be
         provided.

         We are pleased to see that appropriate policies and procedures have been
         implemented to ensure that costs are charged to the correct fiscal year. We
         will continue to monitor this effort as a part of staff visits to the DDD.

3. Instruct DHS to reclassify, where warranted, FY 2001 Personnel Costs of
   $138,948 to All Other Nonpersonnel Costs and FY 2002 Personnel Costs of
   $182,308 and Medical Evidence Costs of $16,150 to All Other Nonpersonnel
   Costs and to implement appropriate controls to prevent misclassification from
   occurring in the future.

   DHS will make the necessary reclassifications as shown above to the correct fiscal
   years. In addition, DHS has modified accounting procedures so that each category
   is appropriately identified and accounted for separately to preclude classification
   errors from occurring in the future. DHS will submit revised SSA-4513 reports
   reflecting these changes for FYs 2001 and 2002.

   As DHS expects to have all of the reconciliation actions completed by the end of
   November, we will instruct DHS to provide the revised SSA-4513s by December 15,
   2005.

4. Instruct DHS to institute internal control measures that ensure proper
   recording of costs on the Form SSA-4513.

   DHS has reviewed their policies and procedures concerning the accounting process,
   both at the DDD and DHS, in an effort to identify ways to strengthen controls and
   has implemented modifications to their accounting procedures ensuring that costs
   are properly supported and appropriately classified to the correct fiscal period.

   In August 2005, we provided training for employees involved in the accounting
   process in the DC Department of Human Services (DHS), the Rehabilitative
   Services Administration (RSA) and the Disability Determinations Division (DDD).
   This training along with the modification made to the accounting process should yield
   better prepared fiscal documents. We will continue to review information provided
   on the SSA- 4513 to ensure that the training effort was successful. If necessary we
   will conduct future training in areas where we identify deficiencies.

5. Instruct the DDD to reconcile its All Other Nonpersonnel purchases to the
   accounting reports maintained by DHS.

   DHS has directed the DDD to reconcile All Other Nonpersonnel purchases to
   accounting reports maintained by DHS in an effort to identify costs not recorded as
   DDD expenses. DHS expects this reconciliation to be completed by November 25,




                                          G-5
   2005 and revised SSA-4513s will be submitted to properly report all expenses
   incurred by the DDD.

   As DHS expects to have all of the reconciliation actions completed by the end of
   November, we will instruct DHS to provide the revised SSA-4513s by December 15,
   2005.

In closing, I appreciate your assistance in conducting the audits we requested and
remain concerned about the delays in receiving appropriate documentation and action
from the District. SSA provides over 6 million dollars per year to the DDD to ensure that
timely and accurate disability decisions are provided to the disabled citizens of the
District of Columbia. We consider failure to properly account for these funds, a serious
matter and will instruct DHS to return funds not accounted for by the deadlines noted.

If you have questions or would like to discuss this response further, you may contact me
at (215) 597-5157. If member s of your staff have questions or need additional
information, they may contact Elaine Garrison-Daniels, Center for Disability Programs,
via email or at (215) 597-2189.


                        Sincerely,

                        /s/

                        Laurie Watkins
                        Regional Commissioner


cc:
Yvonne D. Gilchrist, Director Department of Human Services
Elizabeth B. Parker, Administrator Rehabilitation Services Administration
Dr. Adeniyi Ibikunle, Chief Disability Determination Division




                                           G-6
                                   Appendix H

District of Columbia Department of Human
Services Comments
H-1
                            DISTRICT OF COLUMBIA
                       DEPARTMENT OF HUMAN SERVICES
                      DISABLITY DETERMINATION DIVISION

                  RESPONSE TO RECOMMENDATIONS
         RELATIVE TO SSA OIG AUDIT OF ADMINISTRATIVE COSTS
                   FOR FISCAL YEARS 2001 AND 2002



1)   Instruct the District of Columbia Department of Human Services (DHS) to refund to
     the Social Security Administration (SSA) $106,102 for unallowable costs.

     Within 45 days, a check made payable to SSA for $106,102 will be issued in repayment
     of the disallowed costs.

2)   Work with DHS to determine the validity of net unsupported costs of $376,416 and
     $1,086,604 for FY 2001 and 2002, respectively, and require DHS to refund any
     disbursements claimed for which support can not be provided.

     All Other Nonpersonnel Costs
     Construction – The draft report indicates $395,408 in unsupported costs associated with
     construction. $137,658 was expended and the balance, $257,750, is reflected as an
     unliquidated obligation that has not been drawn in reimbursement. The RSA
     Administrator has requested a copy of the contract with the construction company, as
     well as copies of relevant invoices to support costs incurred. Copies of those documents
     will be provided to SSA as soon as they are received.

     Telephone – The draft report indicates $37,937 and $52,939 in unsupported telephone
     charges for FYs 2001 and 2002, respectively. DHS requested supporting documentation
     from the District’s Office of the Chief Technology Officer (OCTO), the office
     responsible for procuring and managing telecommunication services in the District. We
     have been unsuccessful thus far in getting the information we need. However, in a
     meeting with OCTO representatives on September 22, 2005, DHS staff expressed the
     need for supporting documentation to preclude disallowance. OCTO officials requested
     that we resubmit our request and committed to addressing our needs. We will forward
     information received from OCTO upon receipt.

     Dictation, courier, temporary staff, office supplies, travel and postage – According to the
     draft report, a total of $78,648 and $6,712 for FYs 2001 and 2002, respectively, are
     unsupported. We will make a final attempt to locate these documents and submit copies
     within 45 days.

     Incorrect FY Recording and Reporting – According to the draft report, $61,804 was
     classified as FY 2001 costs, when in fact these costs were incurred in FYs 2000 and
     2002.


                                            H-2
Correspondingly, FY 2002 costs are understated by $61,238 because those costs were
moved to FY 2001. Within the next 60 days, we will develop and submit written policies
and procedures to ensure that obligations are charged to the correct fiscal year. Any
restatement would be a paper exercise only because we cannot modify the District’s
accounting records for prior periods. In addition, SSA audited 4513 reports for FY 2000
without requiring restatement.

Personnel Costs
Unsupported costs – According to the draft report, DHS understated medical consultant
costs in FY 2001 by $30,885 and overstated medical consultant costs in FY 2002 by
$258,631. DDD has hired two temporary accounting clerks to reconcile payments from
the SOAR system with invoices received by the DDD for FYs 2001 and 2002. We
anticipate this effort will be completed no later than the end of November 2005. Once
complete, we will be able to reconcile invoices with amounts reported.

Medical Evidence Costs

According to the draft report, the auditors identified a variance of $228,912 and $434,152
for FY 2001 and 2002, respectively, when comparing Medical Evidence costs reported
on the SSA-4513 reports to data contained in the DDD’s AS400 system. The variances
are the result of journal entries that moved charges among fiscal years. Because
carryover budgets were not established in a timely manner, prior year invoices were
charged to a current year’s award. Once the prior year budget was established, amounts
were moved to satisfy unliquidated obligations. This treatment has occurred in all prior
years and has been accepted by previous SSA auditors. We have implemented policies
and procedures going forward to ensure that costs are charged to the correct fiscal period.
Movement of charges will only occur when appropriate supporting documentation is
presented.

DHS reconciled payments reflected in the SOAR accounting system to data in the DDD’s
AS400 system for fiscal years 2001 and 2002. Our reconciliations were provided to the
auditor via email on October 22, 2004. In a subsequent email on November 16, 2004, the
auditor concurred that the issue is not that these costs are unallowable, but unsupported
because DHS could not provide an explanation for the reclassification of these costs
among fiscal years. A copy of the correspondence is enclosed. DDD has hired two
temporary accounting clerks to reconcile payments from the SOAR system with
obligations from the AS400 database for FYs 2001 and 2002 in an effort to validate that
the systems are functioning properly. It is anticipated that this project will be completed
no later than November 2005.

During a site visit by representatives from the SSA Regional Office on March 22-24,
2005, the issue of reclassifying costs from one year to another was discussed in detail.
Because the net affect on all prior years is zero, regional representatives did not express a
need for us to restate all prior year reports, however, stressed the importance of proper
accounting procedures going forward.



                                        H-3
3)      Instruct DHS to reclassify, where warranted, FY 2001 Personnel Costs of $138,948 to
        All Other Nonpersonnel Costs and FY 2002 Personnel Costs of $182,308 and Medical
        Evidence Costs of $16,150 to All Other Nonpersonnel Costs and to implement
        appropriate controls to prevent misclassification from occurring in the future.

        DHS will reclassify FY 2001 personnel costs of $138,948 to All Other Nonpersonnel
        Costs and FY 2002 Personnel Costs of $182,308 and Medical Evidence Costs of $16,150
        to All Other Nonpersonnel Costs. However, any restatement would be a paper exercise
        only because we cannot modify the District’s accounting records for prior periods. After
        the reconciliations by DDD described in items 3 and 5 is complete, DHS will submit
        revised SSA-4513 reports where necessary.

        In addition, DHS has modified controls to prevent misclassification of costs going
        forward. Accounting procedures have been modified so that each cost category is
        appropriately identified and accounted for separately to preclude classification errors.
        DHS and DDD staff will work together to monitor outcomes to ensure that controls are
        functioning properly.

4)      Instruct DHS to institute internal control measures that ensure proper recording of
        costs on the Form SSA-4513.

        DHS has reviewed policies and procedures concerning the accounting process, both at
        DDD and DHS, in an effort to identify ways to strengthen controls. We have performed
        a review of expenditures and have modified the accounting process to ensure that costs
        are appropriately classified. Supporting documentation is now required for all
        adjustments and reclassifications of costs. Revised Financial Status Reports (SSA Form
        4513) for fiscal years 2003 and 2004 reflect changes to expense classifications based on
        these efforts.

        In addition, SSA has provided technical assistance and guidance to DHS concerning
        federal reporting, which DHS has utilized in establishing written policies and procedures
        concerning the completion of the SSA-4513 report. Those policies and procedures were
        provided to representative from the Regional Office during a site visit on March 22-24,
        2005. A copy is enclosed for your reference.

     5) Direct the DDD to reconcile its All Other Nonpersonnel purchases to the accounting
        reports maintained by DHS.

        The DDD has been directed to reconcile All Other Nonpersonnel purchases to accounting
        reports maintained by DHS in an effort to identify costs not recorded as DDD expenses.
        Within 60 days, DDD staff shall compare vendor files with DHS accounting records.
        Revised SSA-4513 reports will be submitted where necessary to properly report all
        expenses incurred by the DDD. Any restatement would be a paper exercise only because
        we cannot modify the District’s accounting records for prior periods.



                                               H-4
                                                                         Appendix I

OIG Contacts and Staff Acknowledgments
OIG Contacts
    Vicki Vetter, Director, Financial Audit Division (410) 966-9081

    Lance Chilcoat, Audit Manager, (410) 965-9743

Acknowledgments

In addition to those named above:

    Steven Sachs, Auditor-in-Charge

    Sigmund Wisowaty, Senior Auditor

    Ronald Anderson, Auditor

    Brennan Kraje, Statistician

    Annette DeRito, Writer/Editor

For additional copies of this report, please visit our web site at http://ww.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218.
Refer to Common Identification Number A-15-05-30018.

.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                  Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
